                                                      U.S. DEPARTMENT OF
                                      HOUSING AND URBAN DEVELOPMENT
                                               OFFICE OF INSPECTOR GENERAL




                                                   November 14, 2012
                                                                                                    MEMORANDUM NO:
                                                                                                         2013-BO-1801



Memorandum
TO:               Charles S. Coulter
                  Deputy Assistant Secretary for Single Family, HU



FROM:             Edgar Moore
                  Regional Inspector General for Audit, Boston Region, 1AGA

SUBJECT:         Prysma Lending Group, LLC, Danbury, CT, Complied With HUD-FHA Loan
                 Origination and Quality Control Requirements

                                                  INTRODUCTION

We audited Prysma Lending Group, LLC, a nonsupervised lender,1 located in Danbury, CT, in
support of the U.S. Department of Housing and Urban Development (HUD), Office of Inspector
General’s (OIG) goal of improving the integrity of the single-family insurance program. We
selected Prysma for audit because its 3.28 percent default rate for Federal Housing
Administration (FHA)-insured single-family loans with beginning amortization dates between
December 1, 2009, and November 30, 2011, was higher than the overall national average of 1.91
percent for the same period and its default rate was generally higher than the average of the
States in which the lender originated the majority of its loans.2 Our audit objectives were to
determine whether Prysma acted in a prudent manner and complied with HUD regulations,
procedures, and instructions in the origination of the FHA-insured single-family loans selected
for review and implemented a quality control plan in accordance with HUD’s requirements.




1
  A nonsupervised lender is a financial institution that has as its principal activity the lending or investment of funds
in real estate mortgages. A nonsupervised lender can originate, purchase, hold, and service FHA insured loans and
submit applications for insurance.
2
  As of January 10, 2012, the default rates for the States in which Prysma originated the majority of its loans were
Florida 17.86 percent vs. 2.50 percent; Massachusetts 10.00 percent vs. 1.52 percent; South Carolina 8.33 percent
vs. 2.05 percent; and Connecticut 1.06 percent vs. 1.95 percent.
                                               Office of Audit, Boston Region
                                    10 Causeway Street, Room 370, Boston, MA 02222-1092
                                         Phone: (617) 994-8380; Fax: (617) 565-6878
                                 Visit the Office of Inspector General Website at www.hudoig.gov.
                                     METHODOLOGY AND SCOPE

Our survey generally covered a 3-year period from January 1, 2009, through December 31, 2011.
We performed onsite work at the lender’s office, located at 10 Precision Drive, Danbury, CT,
between January and August 2012. To accomplish the survey objectives, we

                 Identified, obtained, and reviewed relevant regulations pertaining to the
                  origination of single-family mortgages, including the Code of Federal Regulations
                  (CFR), HUD handbooks, mortgagee letters, and the United States Code.

                 Obtained and reviewed pertinent performance information relating to the lender.

                 Obtained, reviewed, and documented whether the lender maintained a quality
                  control plan that met HUD requirements.

                 Obtained and reviewed copies of policies and procedures that the lender used in
                  its loan origination processes.

                 Obtained FHA case-level data on all properties originated or sponsored during the
                  audit period by the targeted lender and data on associated loans, insurance,
                  claims, defaults, and demographics.

                 Assessed other general aspects of the branch’s operations to ensure their
                  continued lender approval status.

                 Selected a nonstatistical sample of 24 FHA-insured loans for potential review.
                  We initially identified 38 loans with early payment defaults3 and reduced this
                  figure by eliminating (1) loans that were originated before January 1, 2009 (4
                  loans), (2) loans identified as streamline refinances (9 loans), and (3) loans
                  previously reviewed by HUD’s Quality Assurance Division (1 loan).

                 Of the 24 loans identified for potential review, performed a detailed review of 184
                  loans, with a combined mortgage value of more than $4 million, to identify any
                  that might be ineligible for insurance based on HUD’s requirements. We relied on
                  information from systems used by HUD (including Neighborhood Watch and
                  Enterprise Data Warehouse) to target loans for review and verified that the
                  information submitted to HUD was consistent with the information in the lender’s
                  own files.

                 Identified a total of 22 loans that closed between February and April 2012, of

3
  An early payment default is a loan that becomes 60 days past due within the first six payments. Lenders are
required to review all loans going into default within the first six payments as part of quality control.
4
  Although we initially identified 24 loans for potential review, ultimately we reviewed only 18 since we did not
identify any significant origination deficiencies with the 18 loans reviewed. We are satisfied that our review
provided a sufficient assessment of the lender’s origination practices.

                                                          2
                 which 5 loans were reviewed under Prysma’s quality control plan. We evaluated
                 the 5 FHA-insured loans with regard to timeliness, adequacy of the reviews and
                 whether they met HUD requirements. These loans were not part of the 18 loans
                 previously reviewed.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.


                                               BACKGROUND

The National Housing Act, as amended, established FHA, an organizational unit within HUD.
FHA provides insurance to protect lenders against losses on borrowers financing homes. The
basic single-family mortgage insurance program is authorized under Title II, section 203(b), of
the National Housing Act and is governed by regulations in 24 CFR Part 203. The single-family
programs are generally limited to dwellings with one- to four-family units. HUD handbooks and
mortgagee letters provide detailed processing instructions and advise the mortgage industry of
major changes to FHA programs and procedures.

Prysma is a HUD-FHA-approved Title II nonsupervised lender located in Danbury, CT. HUD
authorized the lender to originate FHA loans on August 17, 2004. A nonsupervised lender is a
financial institution that has as its principal activity the lending or investment of funds in real
estate mortgages. A nonsupervised lender can originate, purchase, hold, and service FHA-
insured loans and submit applications for insurance. During our review, Prysma was an
authorized agent for one lender and authorized principal for seven lenders.

HUD’s Neighborhood Watch system5 reported that Prysma officials originated 274 FHA-insured
loans with beginning amortization dates between December 1, 2009, and November 30, 2011.
As of January 10, 2012, Neighborhood Watch reported that nine of these loans were seriously
delinquent, resulting in a default rate for this 2-year period of 3.28 percent, which is higher than
the 1.91 percent rate for the rest of the United States. Prysma originated at least one FHA loan in
eight different States during this period, with primary originations occurring in the States of
Florida and Connecticut.


                                          RESULTS OF REVIEW

Our review determined that Prysma complied with HUD regulations, procedures, and
instructions for the origination of the FHA-insured single-family loans selected for review. From
January 1, 2009, through December 31, 2011, Prysma originated 512 FHA-insured loans with a

5
  Neighborhood Watch is a Web-based comprehensive data processing, automated query, reporting, and analysis
system that is intended to aid HUD in monitoring lenders and its programs and is designed to highlight exceptions to
lending practices regarding high-risk mortgages so that potential problems are readily identifiable.

                                                         3
combined mortgage value exceeding $109 million. Of those loans, we identified a total of 38
loans that went into early payment default and performed a detailed review of 18 of those loans,
with a combined mortgage value of more than $4 million. We did not identify any material
issues that would exclude the loans from being eligible for insurance according to HUD
requirements.

Additionally, we determined that Prysma established and implemented a quality control plan that
complied with HUD-FHA requirements. HUD Handbook 4060.1, REV-2, chapter 7, requires all
FHA-approved lenders to implement and continuously have in place a quality control plan for
the origination and servicing of insured mortgages as a condition of receiving and maintaining
FHA approval. This chapter also provides that quality control must be a prescribed and routine
function of each lender’s operations, whether performed by a lender’s staff or an outside source.

During the review, Prysma’s routine quality control reviews were conducted externally by a
quality control contractor, Mortgage Compliance Advisors, LLC. We performed a limited
review of Prysma’s quality control plan covering the 3-month period February through April
2012. During that time, the lender closed 22 FHA-insured loans, and quality control reviews
were performed on 5 of those loans, representing 23 percent of the loans closed. No material
deficiencies were reported. Our review of 18 loans selected for detailed review also did not
disclose any material concerns.


                                        CONCLUSION

Our review determined that for the loans reviewed, Prysma complied with HUD regulations,
procedures, and instructions in the origination of the FHA-insured single-family loans and
implemented a quality control plan in accordance with HUD-FHA requirements. We did not
identify any origination deficiencies from the specific loans reviewed that would require further
detailed review.


                                   RECOMMENDATIONS

Based on the results of the audit, this report contains no recommendations.




                                                4
